IN THE SUPREME COURT OF THE UNITED STATES
No. _______
Matthew D. Norwood,
Machinist’s Mate Nuclear Petty Officer First Class,
United States Navy,
Petitioner
v.
United States of America,
Respondent
CERTIFICATE OF COMPLIANCE
I, counsel for Petty Officer Norwood, hereby certify that on this 25th day of
May, 2021, I caused copies of the Petition for Writ of Certiorari in Norwood v.
United States, to be served on the Navy and Marine Corps Appellate Review
Activiy, Appellate Government (Code 46), by electronic delivery at the agreed email
address: DACCode46@navy.mil.
I further certify that a copy of the Petition was served on the Solicitor
General of the United States as required by Rule 29(4)(a).
I certify that all required parties have been served a copy of the Petition in
this case.
CHRISTOPHER K. RIEDEL
LCDR, JAGC, USN
U.S. Navy-Marine Corps
Appellate Defense Division
1254 Charles Morris St, SE
Bldg. 58, Suite 100
Washington Navy Yard, D.C. 20374
(202) 685-7292
christopher.riedel@navy.mil

